<html>
<title> - STOPPING SENIOR SCAMS</title>
<body><pre>[Senate Hearing 115-671]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-671

                         STOPPING SENIOR SCAMS

=======================================================================

                                HEARING

                               BEFORE THE

                       SPECIAL COMMITTEE ON AGING

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             WASHINGTON, DC

                               __________

                             MARCH 7, 2018

                               __________

                           Serial No. 115-15

         Printed for the use of the Special Committee on Aging

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-279 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b2c2ddf2d1c7c1c6dad7dec29cd1dddf9c">[email&#160;protected]</a>               
        
        
        
        
        
        
                       SPECIAL COMMITTEE ON AGING

                   SUSAN M. COLLINS, Maine, Chairman

ORRIN G. HATCH, Utah                 ROBERT P. CASEY, JR., Pennsylvania
JEFF FLAKE, Arizona                  BILL NELSON, Florida
TIM SCOTT, South Carolina            KIRSTEN E. GILLIBRAND, New York
THOM TILLIS, North Carolina          RICHARD BLUMENTHAL, Connecticut
BOB CORKER, Tennessee                JOE DONNELLY, Indiana
RICHARD BURR, North Carolina         ELIZABETH WARREN, Massachusetts
MARCO RUBIO, Florida                 CATHERINE CORTEZ MASTO, Nevada
DEB FISCHER, Nebraska                DOUG JONES, Alabama
                              
                              ----------
                              
                 Kevin Kelley, Majority Staff Director
                  Kate Mevis, Minority Staff Director
                                
                                CONTENTS

                              ----------                              

                                                                   Page

Opening Statement of Senator Susan M. Collins, Chairman..........     1
Statement of Senator Robert P. Casey, Jr., Ranking Member........     3

                           PANEL OF WITNESSES

Rita and Stephen Shiman, Grandparent Scam Victims, Saco, Maine...     5
Doug Shadel, Ph.D., State Director, AARP Washington..............     6
Mary Bach, Chair, AARP Pennsylvania's Consumer Issues Task Force, 
  Murrysville, Pennsylvania......................................     9
Adrienne Omansky, Founder, Stop Senior Scams Acting Program, Los 
  Angeles, California............................................    11

                                APPENDIX
                      Prepared Witness Statements

Rita and Stephen Shiman, Grandparent Scam Victims, Saco, Maine...    26
Doug Shadel, Ph.D., State Director, AARP Washington..............    26
Mary Bach, Chair, AARP Pennsylvania's Consumer Issues Task Force, 
  Murrysville, Pennsylvania......................................    28
Adrienne Omansky, Founder, Stop Senior Scams Acting Program, Los 
  Angeles, California............................................    30

 
                         STOPPING SENIOR SCAMS

                              ----------                              


                        WEDNESDAY, MARCH 7, 2018

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:01 p.m., in 
room SD-562, Dirksen Senate Office Building, Hon. Susan M. 
Collins (Chairman of the Committee) presiding.
    Present: Senators Collins, Fischer, Casey, Gillibrand, 
Blumenthal, Donnelly, and Cortez Masto.

    OPENING STATEMENT OF SENATOR SUSAN M. COLLINS, CHAIRMAN

    The Chairman. The hearing will come to order.
    Good afternoon. This Committee's ongoing commitment to 
fighting fraud against older Americans is raising awareness and 
making a real difference. Just 2 weeks ago, the Department of 
Justice announced the largest coordinated, nationwide sweep of 
elder fraud cases in our history. Involving more than 250 
defendants who victimized more than 1 million Americans, the 
elder fraud schemes charged in this effort caused losses of 
more than half a billion dollars.
    The criminal, civil, and forfeiture cases stemming from 
this sweep are related to a variety of fraud schemes, ranging 
from mass mailings, telemarketing, and investment frauds to 
incidents of identity theft and abuse by guardians. In his 
remarks, Attorney General Sessions thanked the Aging Committee 
for our longstanding work to shed light on the widespread issue 
of fraud targeting our seniors. While important progress is 
being made, we must not let up on our efforts to educate 
seniors, their families, and their caregivers about these 
scams.
    The stakes are extremely high. According to the Government 
Accountability Office, America's seniors lose a staggering $2.9 
billion a year to an ever-growing array of financial 
exploitation schemes and scams. In Maine--the state with the 
oldest population by median age--about 33,000 seniors each and 
every year are the victims of some kind of elder abuse, ranging 
from financial fraud to physical abuse and neglect.
    Today our Committee is releasing its updated Fraud Book for 
2018. This book, like the ones we have published in the past, 
lists the 10 most prevalent scams that are reported to our 
Committee's Fraud Hotline. Our investigators on our Fraud 
Hotline received more than 1,400 calls from residents from all 
over the country last year. But once again, a familiar scam 
tops the list.
    For the past 3 years, the IRS impersonation scam has been 
the most consistently reported to our hotline. In this scam, a 
con artist pretending to represent the IRS calls demanding 
money for supposedly past due taxes. The criminals often demand 
payment in the form of gift cards, and they threaten their 
victims with arrest if they do not pay up immediately. In this 
scam, fraudsters use fear to threaten their victims and steal 
their money.
    The perpetrators of the IRS scam are sophisticated and 
ruthless. They often ``spoof'' the telephone number so that the 
caller ID reads the ``Department of Treasury'' or the 
``Internal Revenue Service,'' ensuring that the recipient of 
the call will answer it. And if the victim does not agree to 
pay up the money, then the next call often will appear to be 
from the local police department threatening to arrest the 
senior immediately.
    Other scams on our top ten list include robocalls, lottery 
scams, grandparent scams, computer tech support scams, romance 
scams, and elder financial abuse--to name just a few.
    Our hotline not only has helped us identify the most common 
scams but also in some cases to stop them in their tracks. For 
example, as a result of a tip that came into our hotline in 
2016, the Treasury Inspector General for Tax Administration 
arrested five individuals in connection with the IRS 
impersonation scam. The Inspector General's investigation 
ultimately led to the identification and indictment of an 
additional ten suspects related to this case last year. The IG 
believes that these 15 individuals victimized nearly 8,000 
people and stole approximately $9 million from unsuspecting 
Americans.
    In a similar but unrelated case, 56 individuals and 5 call 
centers in India were indicted in October 2016 for their 
involvement in the IRS impersonation scam. The Committee's own 
data show that these arrests had a real impact. Prior to the 
arrests, nearly three out of every four calls to our hotline 
involved the IRS impersonation scam. In the 3 months after the 
arrests, reports of the scam dropped by an incredible 94 
percent. Moreover, in 2017, the Committee saw an overall 77 
percent reduction in the number of IRS impersonation scams 
reported to our hotline compared to the previous year. Clearly, 
law enforcement actions serve as a deterrent to scammers. And 
that is why I am so pleased that the Department of Justice is 
now focusing on this issue, making it a priority, and asking 
the U.S. Attorney's Office to designate an individual who will 
be in charge of going after scams that are targeting our 
seniors. Nevertheless, I have to report to you that the IRS 
scheme remains the most persistent scam reported, and we always 
see a peak during tax season.
    In a more recent case, last month, a woman from Alabama 
contacted our Committee's hotline to report that her 60-year-
old mother-in-law had become the victim of an online romance 
scam. The woman told us that this con artist, pretending to 
love her mother-in-law, told her that he wanted to marry her 
and had her open a joint checking account in both their names. 
She wanted to deposit her retirement savings into the account 
because the scammer told her that he would also deposit $23,000 
into it. Furthermore, the victim purchased a plane ticket to 
Nigeria and was scheduled to depart on February 19th so that 
she could be with this man who supposedly loved her.
    Fearing that her mother-in-law would get on the plane and 
that she would never see her again, this woman contacted our 
Committee's hotline seeking assistance. Fraud Hotline 
investigators contacted the Department of Homeland Security and 
asked that they intervene. Agents quickly reached out to both 
the caller and the victim and provided information on a variety 
of scams including romance scams, Nigerian scams, and scams 
that trick seniors into being, without their knowledge, 
international drug smugglers. After speaking with the Homeland 
Security officials, the victim understood that she was being 
drawn in to this scheme and she agreed not to fly to Nigeria.
    As our 2018 Fraud Book makes clear, while we are making 
progress, far too many victims are still losing money and, far 
too often, their entire retirement savings. Law enforcement, 
consumer protection groups, the AARP, Area Agencies on Aging, 
and financial institutions play vital roles, but alert citizens 
are our first and best line of defense.
    Today we will hear about innovative ways to increase the 
public's awareness of these scams, and I am particularly 
pleased to welcome two of my constituents, Stephen and Rita 
Shiman, from Saco, Maine. They are going to tell us about their 
own experience with a common scam, the grandparent scam, and I 
so appreciate their willingness to speak out because by their 
coming forward, they will help others to prevent them from 
becoming victims themselves.
    I am very proud of our work in exposing scams that are 
targeting our seniors. The more that seniors know about these 
scams, the less likely they are to fall victim. And we give 
many examples of common scams, as well as tips for how to avoid 
becoming a victim.
    I want to end by saying that we are dedicated to helping 
our older Americans become more aware and better informed, but 
this can happen to anyone of any age, and I think it is 
important that we acknowledge that as well. We are putting the 
criminals on notice that they will be stopped and they will be 
brought to justice.
    Thank you, and I would now like to turn to Senator Casey 
for his opening statement.

  OPENING STATEMENT OF SENATOR ROBERT P. CASEY, JR., RANKING 
                             MEMBER

    Senator Casey. Chairman Collins, thank you very much for 
holding this hearing, and thank you for your great work on this 
over many years and the intensity and passion you bring to this 
subject.
    So many experts from around the country have struggled to 
estimate, just to estimate the total financial impact of scams 
and abuses that target our seniors, mainly because it is so 
underreported. However, they know it adds up to at least $3 
billion a year in lost savings--and potentially billions more.
    The impact of scams on older adults can have dire 
consequences, and that is probably an understatement. For many 
seniors, their nest egg may represent a significant source of 
their monthly income, allowing them to afford rent, health 
care, and food. Once their funds are stolen, they often never 
receive adequate reimbursement for that loss.
    Last summer, the Lebanon Daily News in Lebanon, 
Pennsylvania, right in the middle of our state, reported on an 
82-year-old Pennsylvanian who lost $30,000 to scammers because 
he believed he was prepaying the tax on a $10.5 million 
sweepstakes win. He will never see those winnings nor his 
$30,000 again. It is our sacred responsibility to take 
aggressive action, as Senator Collins just outlined, so that 
not one more senior loses one more penny. That has to be the 
goal, the ultimate objective.
    Today we will hear about the efforts of volunteers and 
organizations from coast to coast who educate seniors about the 
slimy tactics that these con artists apply. Helping older 
Americans and older Pennsylvanians protect themselves and their 
hard-earned savings is the very least that we can do here in 
Washington. But the responsibility to protect oneself from a 
scammer should not sit solely with our aging loved ones.
    That is why I am pleased that last year the Federal 
Communications Commission heeded calls from this Committee to 
finalize rules that would help stop an illegal call from a 
scammer before it is even dialed. I am hopeful that industry 
will use this new tool to take aggressive action against 
robocalls.
    It is why we will also continue to ensure law enforcement 
has the resources necessary to punish those perpetrating these 
horrible crimes or knowingly allowing these scammers to receive 
``payments.'' And it is why we must continue to work with 
retailers, pharmacies, banks, money-transferring companies, and 
the gift card industry to prevent assets from ever leaving the 
hands of unsuspecting victims in the first place.
    I am pleased that we have a Pennsylvanian here to testify 
today. Mary Bach is our witness, and Mary should not have to 
drive one more mile to spread the word about scams and con 
artists to her peers. And I know that Mary is anxious to 
testify based upon my short conversation earlier, but I still 
have to introduce you in a few moments. So, Mary, we are 
grateful you are here, grateful to our other witnesses who 
traveled here to be with us to give their testimony, and, of 
course, grateful to our Chairman for holding the hearing.
    Thank you.
    The Chairman. Thank you very much.
    I want to welcome Senator Fischer and Senator Cortez Masto 
for joining us also today as we explore this important issue.
    We will now turn to our panel of witnesses. First, let me 
say again how delighted I am to welcome two of my constituents, 
Stephen and Rita Shiman, from Saco, Maine. Like far too many 
seniors, Stephen and Rita fell victim to the notorious 
grandparent scam, which they will describe today. And I am 
certain that their story will help to prevent others from being 
scammed.
    We will then hear from Doug Shadel, who serves as 
Washington State director for AARP. AARP has worked so closely 
with us in helping to distribute last year's Fraud Book, and I 
am sure that they will this year as well, as we join common 
cause in helping to educate seniors about common frauds and 
what they can do to avoid becoming victim.
    Ranking Member Casey will now introduce our next witness.
    Senator Casey. Thanks very much.
    As I alluded to just a couple minutes ago, I am pleased to 
introduce Mary Bach. Mary is from Murrysville, Pennsylvania, 
Westmoreland County, way out in southwestern Pennsylvania, and 
we are grateful she is with us today. Mary has volunteered with 
AARP Pennsylvania for 20 years as the chair of their Consumer 
Issues Task Force. In this role, Mary travels about 15,000 
miles a year in Pennsylvania, giving more than 100 
presentations to groups and organizations.
    Mary, I thought I traveled a lot in Pennsylvania. I think 
you have me beat.
    She has won numerous recognitions and honors, including the 
Andrus Award for Community Service from AARP, just to name but 
one. Mary will tell us about the most effective ways she finds 
to educate seniors about scams.
    I also want to recognize her husband, Len, who is here, and 
I am grateful for his presence and helping to get Mary here 
today. And, Mary, we are grateful that you are here, grateful 
for your testimony, and we look forward to hearing your 
testimony.
    Thank you.
    The Chairman. Thank you.
    And, finally, we will hear from Adrienne Omansky. She is 
the founder of the Stop Senior Scams Acting Program in Los 
Angeles. Ms. Omansky will describe her program's unique model 
of seniors using theater to warn their peers about scams.
    So I want to thank all of our witnesses for being with us, 
and we are going to start with Mr. and Mrs. Shiman. Thank you.

STATEMENT OF RITA AND STEPHEN SHIMAN, GRANDPARENT SCAM VICTIMS, 
                          SACO, MAINE

    Mrs. Shiman. Good afternoon. I want to thank Senator 
Collins and the Committee for their interest and work on this 
problem of scamming of senior citizens. We also want to thank 
our friend Bill King, the sheriff of York County in Maine, for 
his work in educating seniors about scamming.
    When my husband and I realized we were scammed, we felt so 
embarrassed and humiliated, we told no one about it except our 
children and Sheriff King. When we were getting ready to leave 
for Washington, we had to tell our friends why we were coming. 
They responded almost unanimously that they either knew someone 
or had a relative who had been scammed. And so we feel 
especially pleased to be able to be here because now we feel we 
can really open up and talk about it, because I think so many 
more people want to talk about it but are afraid to do so.
    There is a special bond between grandparents and their 
grandchildren. The scammers know this well, and they take full 
advantage of it. They know that when a child is in trouble, 
grandparents go all out to help. There was also a concern on 
our part because of potential racial bias against Kabo, our 
grandson, who is an adopted native of Botswana.
    On the morning of May 28, 2015, I answered the phone and 
spoke to someone who said he was Kabo. The voice sounded just 
like him. He said he was in Atlanta, Georgia, and that he had 
been arrested and was in a county jail. He needed bail money. I 
asked him what brought him to Georgia from his home in 
Maryland. He said a college classmate had died of cancer, and 
several friends drove to Georgia for the funeral.
    Kabo told me he was assigned a public defender who promised 
him he would be freed upon payment of bond satisfactory to a 
judge. He was turning to us because he did not want his 
parents--my son and his wife--to know. He made me promise I 
would not tell anyone about this. He said the public defender 
would call us shortly.
    The supposed public defender, identified as George Diaz, 
did call us and said he was meeting with the judge shortly. 
There was a sense of urgency. If we paid $1,230, the judge 
would release Kabo. He said the transaction had to be in cash 
and sent via Western Union to his contact in the Dominican 
Republic, and he gave us the details. That statement alone 
should have raised a red flag, but we were so caught up in the 
moment that we were simply acting on autopilot. He also said 
that if Western Union questioned this transaction, we should 
say nothing. He said they legally have no right to ask. As it 
turned out, no one raised an eyebrow. And my husband will take 
it from there.
    Mr. Shiman. When we made payment and nobody said anything, 
we came home, but it did not take long for us to say, 
``Something is wrong here.'' And I got on the phone and called 
the public defender's office in Atlanta. They never heard of 
George Diaz, no such person as identified by them. And I knew 
right away this is totally false. There is nothing true about 
it.
    And then we got really adventuresome, and we did what we 
should have done to begin with, and we called my son's house. 
And who picks up the phone but my grandson, Kabo. He says, ``I 
just got out of the shower, and I have been here all along.'' 
And I can tell you I was, even with the parting of the money 
that we had lost, a very happy guy to know this is just a total 
fabrication.
    It is very easy to play Monday morning quarterback. There 
were so many things that we should have known. We went over 
this incident over and over again, and we could not believe 
that we were so duped. We like to think we are sophisticated 
people, but when it comes to these emotional responses to 
people that we love, our reason went out the window. And, 
hopefully, through the work of this Committee and as I have 
learned so much about AARP and the wonderful work they are 
doing, we can find ways to constructively prevent other people 
from becoming victims of this kind of malicious activity.
    We really appreciate the opportunity to speak to you today. 
Thank you.
    The Chairman. Thank you very much for your very compelling 
testimony. Again, let me express my appreciation, which I know 
is shared by colleagues, for your willingness to come forward.
    I am going to tell my own story about a similar experience 
a little later, but let us go on to our next witness, Mr. 
Shadel.

     STATEMENT OF DOUG SHADEL, PH.D., STATE DIRECTOR, AARP 
                           WASHINGTON

    Mr. Shadel. Thank you, Chairman Collins, Ranking Member 
Casey, and Committee members, for the opportunity to talk about 
the current state of consumer fraud that targets older persons. 
My name is Doug Shadel, and I am the director of AARP 
Washington. I have spent a couple decades now both as a fraud 
investigator and educator and more recently as a researcher 
trying to understand this crime.
    Today imposter scams are on the rise, as we have already 
heard from you, Chairman Collins. The Federal Trade Commission 
reports that imposter fraud complaints have risen from about 
120,000 in 2013 to over 380,000 in 2017 in the latest Consumer 
Sentinel report. We did a study at AARP Washington identifying 
the following top scams, and some of this is repetitive from 
what you were saying, Senator Collins, but let me just describe 
a couple of these.
    The tech support scam is the No. 1 scam that we see going 
on that targets our folks. A computer pop-up alert prompts a 
call to a toll-free number to eliminate a virus, and the 
scammer charges a fee to remove a non-existent problem.
    Phishing scams are a close second behind it. Phishing, P-H-
I-S-H-I-N-G. You receive a notice that looks like it is from 
your bank or credit card company urging you to contact them 
with personal information to fix a problem with your account, 
with the goal of stealing your identity.
    Close behind that, lottery scams. Someone contacts you to 
announce you have a won a lottery and all you need to do to 
claim the prize is to pay a fee.
    The IRS scam, we have heard about that from you, Senator 
Collins. Someone alleging to be from the IRS calls and scares 
you into paying thousands of dollars or you will be thrown in 
jail.
    Romance scams. Someone contacts you on a dating Web site 
and starts ``love bombing'' you. We can talk about what that 
means, but it is essentially showering you with praise right 
out of the gate, even though you do not really know them that 
well, in an attempt to later borrow money from you.
    And the grandparent scam, which we just heard about. This 
is where, you know--well, I do not need to repeat it. A 
distressed relative calls, and there is a variety of ways that 
they do that.
    Well, what do all these scams have in common? One thing is 
the scammer pretends to be someone they are not, and in an age 
of advanced technology, it has never been easier to do that. 
One con artist said, ``If you are a scammer and you are not 
using the Internet, you are guilty of malpractice.''
    The second thing they have in common is that they try to 
arouse your emotions through fear or excitement in order to get 
you to make a decision you may later regret. And over the past 
decade, AARP has interviewed numerous con artists. And when we 
ask them what their central strategy is for scamming people, 
they always say the same thing: ``Get the victim under the 
ether.'' Well, what is ether? Ether is slang for a heightened 
emotional state that forces the victim to react emotionally 
rather than think logically.
    In 2014, we explored this idea with our partners, AARP, the 
FINRA Foundation, and the Stanford University Center on 
Longevity. We wanted to test the role of emotions in making 
people vulnerable to fraud. We researched whether making a 
buying decision while in a heightened emotional state makes it 
more or less likely to fall for a scam. All the con artists 
said this is true, and many victims have said this is true, but 
what does social science say? Can we prove that it is true?
    The findings supported this contention that the goal is to 
get them under the ether and that that, in fact, does make 
especially older people vulnerable. How did we prove this? 
Well, in one experiment, subjects played a rigged game in which 
they initially won money, but then lost continually, leaving 
them in an angry state. In another experiment, subjects played 
a game in which they initially lost money and then continually 
won, resulting in a positive emotional state. And a third group 
played a game that created no mood change.
    Then all three groups were asked to review and rate 
deceptive advertisements based on their credibility and how 
likely they would be to purchase. The results were telling: 
Older people who were in a heightened emotional state, either 
positive or negative, were more likely than the control group 
to say they would buy, whether or not they found the ads to be 
credible. They were also easier to arouse and get into that 
emotional state than younger persons.
    Well, how does this research apply to prevention? For 
decades now, fraud prevention has focused on this phrase, ``If 
it sounds too good to be true, it probably is.'' And I have 
even said that for years. The problem is that only works if you 
are thinking logically when you are evaluating the scam. And 
the con man's main goal is to get you out of logic and into 
emotion. So a lot of our workshops teach this. We teach the 
persuasion tactics that are done in the service of getting 
people into a heightened emotional state. When you think of the 
lottery, you think of a heightened positive emotional state: 
``I have just won $10 million.'' With the grandparents it is 
fear. These are all emotions that are making people vulnerable.
    We have dozens of volunteers all over the state, not all of 
them as productive as Mary here, but many, many volunteers 
using this research. We have a peer counseling. We have a call 
center that calls--an outbound call center that calls thousands 
of people every year and does peer counseling. And this peer 
counseling is another thing maybe we can talk about later that 
has been really effective.
    I just want to make one final point. Last November, AARP 
announced a national partnership with the U.S. Postal 
Inspection Service to warn military veterans about fraud. Eight 
in ten military victims have received at least one scam attack 
in the last year, and the number of veterans who report being 
victimized by fraud is significantly higher than for the 
general public.
    So beginning this week, there will be this brochure, and I 
have provided these to the Committee. It is called: ``They 
protected us. Now it is our turn.'' And it really just 
describes some of the things we have been talking about here 
today, the common tactics and scams that target seniors, and 
also allows them to report--and maybe we can talk later about 
the value of reporting, because I think that is both good for 
law enforcement to hear from us, but it also has a self-
inoculating effect. If you are reporting, if you are looking at 
these solicitations not because you are interested but because 
you want to report them, that actually protects you from being 
scammed.
    Thank you very much for your time.
    The Chairman. Thank you for your testimony.
    Ms. Bach.

  STATEMENT OF MARY BACH, CHAIR, AARP PENNSYLVANIA'S CONSUMER 
          ISSUES TASK FORCE, MURRYSVILLE, PENNSYLVANIA

    Ms. Bach. Thank you so much, Senator Collins, for having 
this hearing today, and thank you, Senator Casey, for your very 
kind introduction--I also appreciate the attendance of other 
members of the Committee as well--and for allowing me to share 
with you my story and AARP's efforts to educate consumers about 
the frauds and scams that now proliferate almost daily in all 
of our lives.
    My task force team consists of 15 volunteer members from 
across Pennsylvania who are enthusiastic about educating people 
of all ages, but especially seniors, about current scams. Our 
mission statement reads: ``The AARP Consumer Issues Task Force 
will promote consumer protection for all Pennsylvanians, 
educating members and the public about fraudulent, misleading, 
unfair, and/or abusive marketplace practices.'' We educate 
people about the red flag moments in their lives.
    We offer programs and speak before all types of groups, 
from civic clubs, senior centers, and religious organizations 
to professional associations, retirement communities, and 
school groups. I personally share AARP's information with more 
than 4,000 total attendees in my audiences annually. I couple 
that with a number of personal appearances on local and 
statewide television and radio shows, and occasionally even do 
tele-town hall meetings that reach literally thousands. 
Pennsylvania Attorney General Josh Shapiro and I did one 
recently on frauds and scams that had almost 10,000 AARP 
members tuned in. I have even done a series of videos on 
YouTube, which were professionally produced by AARP, and they 
are called ``Outsmarting the Scammers with Mary Bach.''
    There is an old saying, ``Each one teach one,'' and in AARP 
we are educating many, many people. Education is power. And 
when someone hears the specifics of a scam, they are much less 
likely to be victimized. Remember, if you can spot a scam, you 
can stop a scam.
    The Consumer Issues Task Force volunteers offer 
entertaining and compelling presentations. People need to be 
engaged in order to better remember the message. We even have a 
FRAUD Bingo program which we refer to as ``Bingo with a 
message,'' a fun game, which is educational, also.
    Everything we do is centered around fraud prevention. 
Because of the grassroots nature of our efforts, we have 
developed strong relationships with many government agencies 
that appreciate our help in distributing their excellent 
printed materials to our audiences, such as the Pennsylvania 
Department of Banking and Securities, our Department of 
Insurance, our Attorney General's office, and on a national 
scale, publications from FINRA, the FTC, and the FCC.
    While people like to have printed information in hand--and 
I have supplied all of you with the packets that we distribute 
to everyone, so I hope you got those--we find that the face-to-
face, peer-to-peer, senior-to-senior interactions generate a 
trust factor when we are able to swap relevant real-life 
stories.
    After a presentation, I stay and answer questions one on 
one with people who approach me with a personal story or an 
unresolved issue related to scams. Many have concerns for 
themselves or for a loved one who may have been victimized. It 
is not unusual for some to say, ``I wish I had heard your 
program before I gave money to that contractor, or bought that 
annuity, or accepted a free medical device I did not need, or 
actually believed that the guy I met on the Internet was in 
love with me.''
    Seniors are being targeted because they are thought to have 
money available. Older consumers may be less technologically 
savvy, not understanding how much personal information is 
available in the public and in cyberspace about them. They are 
being inundated with phone calls that they cannot control. 
Scammers are now extensively spoofing their caller IDs to make 
those they call believe they are calling from a place that fits 
in with their intended scam, like the local police, the IRS, a 
charity, or Microsoft. When I say in my presentations that they 
can no longer rely on their phone's called ID, many in the 
audience are astonished. Scammers have used my name and number 
to call intended targets. I learned of it when I received a 
call from someone I did not know that I had not called asking 
why I had phoned her. She said that she was returning my call 
to the number that showed up on her caller ID.
    Imposter scams are the worst. Like many others, I have 
received calls from the tech support scam, the federal grant 
scam, charity scams, sweepstakes and lottery scams, and others. 
A man in Syria sent me a Facebook message telling me he wanted 
to marry me. I assure you, my husband might have objected.
    [Laughter.]
    Ms. Bach. My husband has answered the phone to hear the 
jury duty scam, the grandparent scam, among others. And the 
bottom line is that all of these scams are about money, the 
potential victim's money, and that is why education and 
vigilance are imperative. When people understand, they will 
hang up the phone. And I always give my audience members 
permission to be rude.
    AARP does not want anyone to fall for a telephone line, and 
in that regard, AARP has initiated a national program called 
the ``Fraud Watch Network.'' Consumers of all ages can sign up 
to receive fraud alerts about current scams that are going on 
in their communities. It is free of charge; no membership is 
required. And I am proud that Pennsylvania leads all the other 
states in Fraud Watch Network sign-ups. And I hope each and 
every one of you will sign up with me today, and I have given 
you all sign-up sheets.
    AARP sponsored a Hackathon contest here in Washington, 
challenging student teams from prestigious universities to come 
up with innovative ideas to help prevent or stop scams. The 
suggestions proposed by these students would help stop 
robocalling scams and caller ID spoofing. The technology that 
has made the ability to scam us easier for crooks can certainly 
be adapted to work for consumers and not against them.
    I thank you all for the opportunity to be here today as 
someone who is in the trenches day to day trying to make a 
difference in helping to diminish or eliminate the number of 
people being victimized by scams or frauds, and you know I 
would welcome your questions.
    The Chairman. Thank you very much, Ms. Bach, for your great 
work.
    Ms. Bach. Thank you.
    The Chairman. Ms. Omansky.

   STATEMENT OF ADRIENNE OMANSKY, FOUNDER, STOP SENIOR SCAMS 
            ACTING PROGRAM, LOS ANGELES, CALIFORNIA

    Ms. Omansky. Good afternoon, Senator, fellow testifiers, 
and guests. Thank you, Senator Collins and Senator Casey, for 
inviting me to this important hearing. It is an honor to be 
here to provide testimony on how my program has had an impact 
on stopping senior scams.
    Our program began in 2009, and we are a total volunteer 
group. In the last few years, we have grown and have performed 
in about 30 venues per year, from a small veterans group to the 
convention center with over 1,000 seniors. We have 26 skits in 
our repertoire, with 27 actors ages 65 to 99. We always include 
the Medicare, IRS, and the I Won a Prize skits. In every venue, 
the seniors have experienced many of the same scams, including 
the IRS and grandparent scams. One of our own cast members, 
Janey, was a victim of an insidious form of the grandparents 
scam. The scammer got information from her Facebook page and 
threatened to kill her granddaughter if she did not send the 
money being demanded. Janey sent the money. She now feels 
empowered by telling her story to other seniors.
    Our program is always evolving, changing, adding, and 
creating. We have help in crafting our skits from a 
professional theater and performance arts center. Although we 
use many aspects of theater in our skits, including puppets, 
this is not enough to educate our audience. We collaborate with 
professional organizations to make sure our information is 
accurate, such as Senior Medicare Patrol and the Federal Trade 
Commission.
    After each skit, our former judge, Francine Lyles, or one 
of our educators explains the scam to the audience. The finale 
of the program includes all cast members singing the ``Just 
Hang Up'' song, and each actor steps forward and tells the 
audience if they were a victim or a target of a scam. At the 
conclusion of the program, the audience is asked to fill out a 
comment card to tell us what they liked or may suggest. 
Bookmarks from Senior Medicare Patrol and the Federal Trade 
Commission are always given out. In addition, materials are 
available from the city and county district attorneys' office 
in several languages.
    Our audience members often tell us what they have learned 
from our programs, but what have we learned from them?
    We have learned that scams are under-reported because 
seniors sometimes do not know where to report them to. They are 
ashamed of reporting them, and sometimes think it will not 
help.
    We learned that they are embarrassed to tell their family 
members, including their spouses. They sometimes are afraid to 
tell law enforcement.
    We learned that they are more likely to tell their peers 
than anyone else.
    We learned that sometimes seniors do not like professional 
fraud prevention programs because they often feel condescended.
    We learned that seniors who live in assisted living 
facilities are particularly vulnerable to scams because they 
are lonely and they want to win money to help their children 
and grandchildren.
    We have learned that seniors who have been scammed have 
emotional scars.
    We have learned that anyone can be a victim, regardless of 
education, race, gender, national origin, or social economic 
background.
    We have learned that seniors are the ones to stop senior 
scams.
    We have learned that theater is a wonderful platform to 
educate.
    We have learned that peer-to-peer education works.
    The peer-to-peer model provides a comfortable and safe 
environment where they can identify with people who have 
similar life experiences, both as targets and as victims of 
scams.
    The people who disseminate the information are non-
judgmental. This gives the seniors in the audience the 
opportunity to open up and honestly share their own 
experiences.
    The thread throughout our peer-to-peer presentation is 
empowerment in that only you and I can stop these senior scams. 
We are all in this together.
    And now I would like to present a short video on our 
program.
    [Video played.]
    The Chairman. Thank you very much for that very powerful 
testimony, and you certainly hit home the message with that 
video. Thank you so much.
    I am going to start with Mr. and Mrs. Shiman in my 
questions, and first I want to tell you that probably 8 to 10 
years ago, on a very busy day here at work, all of a sudden an 
e-mail popped up, and it appeared to be from my nephew. And he 
said that he was overseas, that he had been mugged, that his 
passport, his airline ticket, and his wallet had been taken, 
and that he and his friend were OK, but they were very shaken 
up and they had absolutely no money and no way to get back 
home, and could I please wire him some money.
    Well, fortunately, I was not under the ether, or perhaps I 
am just a little more hard-hearted than the Shimans, but I told 
him to go immediately to the American embassy and did not wire 
any money. I then started thinking about it and called his 
father and found that he was exactly where he was supposed to 
be in the United States. He was not overseas, much less mugged.
    But I tell you this story because although I never wired 
the money, for a very brief time I was convinced it was my 
nephew. It sounded like him. It had his e-mail address. He was 
in his 20's at the time and traveled a lot, and it was totally 
feasible. And so I shared that story because I think it shows 
that these thieves are very clever and they are ruthless.
    So I want to ask you a question. You mentioned in your 
testimony that you drove to Western Union and sent your money, 
more than $1,200, to the Dominican Republic. Did anyone at 
Western Union question why you wanted to send that large sum of 
money to the Dominican Republic?
    Mrs. Shiman. Well, this is very interesting because in 
Maine, I think in a lot of towns--and I learned that that is 
the same thing in Massachusetts--the Western Union office is 
often in a supermarket or a drugstore, a pharmacy, some other 
business. They do not have separate offices.
    One of the interesting things is that this Mr. Diaz, the 
public defender, said to us, ``By the way, I know where there 
is a Western Union office in Saco,'' he said. ``It is at the 
Hannaford on Main Street, and they have a booth there.''
    So we withdrew the money from the bank and went to 
Hannaford, and at the service desk, there were two or three 
people--there was a sign there that said ``Western Union.'' 
There were two or three people there servicing customers, and 
one fellow said to us, you know--we said we have to send money 
through Western Union, and, you know, while he is bagging milk 
and eggs and bread, he is handing us the forms, and he just 
took them and that was he end of it. No one said a word to us. 
No one.
    And even in the bank--and this is another thing that we 
have discussed, that the banks, too, I think share a little bit 
in this. When they see someone come in and say suddenly, you 
know, ``I am withdrawing $1,250 in cash,'' that should also 
raise something in their minds. And we discussed that in the 
office this morning. But, no, no one at Western Union suggested 
anything.
    The Chairman. You will be pleased to know that Western 
Union is entering into a settlement because of those kinds of 
activities, and also that the banking bill that is on the 
Senate floor includes legislation that many of us have co-
sponsored called the ``Senior$afe Act,'' and it is modeled on 
Maine's law so that if a bank employee or credit union employee 
sees something suspicious, they will not hesitate to question 
it and can do so without being concerned that they are going to 
be sued. And I think we have a very good chance of finally 
getting that through, because I know a lot of alert bank and 
credit union employees in Maine who have asked that question 
due to the protections in Maine law and stopped a fraudulent 
transaction from going through.
    Mr. Shiman. And I just want to add to what Rita said, that 
if someone had said, ``This does not look right,'' the chances 
are in this situation we would not have done it. So it is very 
important.
    The Chairman. You anticipated my next question, so thank 
you for adding that.
    Mr. Shadel, I know you have done a lot of research in this 
area, and we know that veterans are disproportionately 
affected, as you mentioned in your statistics. Do you have 
research that shows that particular kinds of scams are directed 
at particular population groups? Are there certain demographics 
that link up to specific scams?
    Mr. Shadel. You mean for veterans or just in general?
    The Chairman. In general.
    Mr. Shadel. In general, yes, we have done--thank you for 
that question. We have done a lot of profiling research over 
the years. You know, we used to in the fraud prevention world 
figuratively fly over a football stadium and drop 60,000 
brochures out onto that stadium hoping that by reaching 
everyone we would also reach the smaller subset that are 
victimized. That is not a very efficient way to do fraud 
prevention, which gave rise to this whole body of research 
about profiling.
    So we, for example, created--you know, surveyed known 
victims of lottery fraud and the general public to see how they 
differ from the general public, same with investments, same 
with veterans now. So we have got some pretty well developed 
profiles, and a lot of times they are very different.
    For example, take investment victims and lottery victims. 
At first we lumped them together and compared them to the 
general public, and there was no difference. That is because 
when you separate them out, they are precisely divergent. The 
lottery victim tends to be female, tends to be over the age of 
70, lower educational attainment, lower income. Investment 
fraud victims are more likely to be men, 55 to 62, higher 
education, and you are going to reach those people in 
completely different ways with completely different messages. 
Likewise at veterans. This brochure is informed by profiling 
research we did with veterans, with U.S. Postal Inspection 
Service.
    So we are getting a little smarter about it. You can 
customize the message that way, and you can target it and 
hopefully it is more efficient.
    The Chairman. Thank you.
    Senator Casey?
    Senator Casey. Thanks very much.
    I will start with Mary. I have been referring to you as 
``Mary.'' I hope that is OK.
    Ms. Bach. Please do.
    Senator Casey. Mary, by the way, you talked about YouTube. 
I hope we can get your testimony on YouTube. That would, I 
think, scare the hell out of these scammers.
    Ms. Bach. I would hope so.
    [Laughter.]
    Senator Casey. And I mean that as a compliment, in a very 
good way.
    These scams continue to proliferate across the board 
because these bad actors find very creative ways to take hard-
earned dollars from folks. One of the audiences we are trying 
to reach here are employers, whether they are banks or 
retailers or pharmacists or wire transfer companies. We know 
that banks that see a large sum of money coming out of an 
account in a sense get a heads up or have an indication of 
something. Retailers sell gift cards that many victims use to 
pay the con artists. Some of these employers have stepped up to 
protect customers, but more companies need to take action.
    Just the basic question is: What more can employers do, 
what can we do to encourage employers to focus more on this and 
also to take steps to prevent these scams?
    Ms. Bach. Well, as I said in my testimony, I am just such a 
firm believer in education, I really do think education in any 
way is the key to alerting everybody about these kinds of 
scams. And to piggyback on something that the Shimans said 
about people being educated or the bank tellers knowing, I 
think we all have to remember that it is the consumer's money 
and they can do whatever they want to do with their money, even 
if it is giving it to a scammer. And sometimes even when a 
retailer or a bank teller is well educated and may actually try 
to intervene in some of these situations, the person is in the 
ether so much or so headstrong about it that they do not care 
what they are told, and they literally go headstrong in it and 
send their money and allow themselves to be scammed.
    But any way that retailers or bank tellers, any employer 
can get the information, possibly through video training behind 
the scenes, as part of just the employment process, there are 
ways to train employees about what they might expect from a 
customer who, again, has a large amount of money. And if 
something seems out of kilter a bit, if you have got the little 
80-year-old grandmother coming in and wanting to buy $1,500 
worth of iTunes cards, I think that is a bit of a red flag in 
somebody's mind. And if that employee, without fear of any 
retribution, without fear of a lawsuit possibly after the fact, 
could ask questions or say, ``How are you using that money?'' 
or, ``May I ask, do you have a lot of grandchildren that you 
are buying iTunes cards for?'' or ``What is this for?'' 
possibly the person, again, would open up. As the Shimans said, 
if somebody had said something to them or questioned them in 
the process, they might have been willing to take a double 
look.
    So anything an employer can do to train employees, even 
having a little card at the checkout, a sign up saying, ``Is it 
possible you are being scammed if you are taking a lot money 
out of your bank account?'' whatever it is. Any step is a small 
step in the right direction.
    Senator Casey. And the other question I had, Mary, was an 
idea that has been suggested is to have a federal task force to 
develop standard educational materials. What do you think of 
that kind of approach in terms of a federal initiative?
    Ms. Bach. I think that standardization of materials is 
certainly a good start. Education is key, and I mentioned 
having printed materials in hand for all of our audiences. 
People want to go home and digest some of this in the privacy 
of their home after they have heard a certain pitch through a 
presentation. And when they can step back and read and know 
that there are agencies out there that are willing to help 
them--at AARP in Pennsylvania we have what we call the 
``Consumer Issues Reference Sheet,'' and we literally give out 
toll-free telephone numbers about agencies that are there to 
help all of us in terms of knowing about frauds and scams, or 
if someone has been scammed, how to go about reporting it, et 
cetera.
    And so I think any task force that can further the cause, 
that can really look into some of the technological situations 
that are occurring, this ID spoofing, this robocalling, we will 
be a step in the right direction and maybe a step ahead.
    Senator Casey. Thanks very much.
    The Chairman. Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Thank you, Madam Chair and 
Ranking Member. And thank you to all of you. Thank you for 
coming forward today. This is such an important topic because 
it impacts all of us and all of our communities.
    I just want to say to the Shimans thank you for coming 
forward. Your voice matters, and you talking about it today is 
going to prevent somebody else from becoming a victim. And to 
everyone else here, your work and effort is key.
    Let me start with this question, because I have worked on 
this issue in Nevada, particularly to protect seniors against 
these types of fraudulent activities and scamming. And I agree 
with you, I think education awareness is the first step in that 
prevention. Education is key. Education, education.
    The first time I have heard peer-to-peer being so 
effective, and I like that idea. So what I am going throw out 
there is ask you, Mr. Shadel and Ms. Bach and Ms. Omansky, what 
was the most effective? What is the most effective outreach 
that you have found to really connect to seniors to educate 
them on the scams?
    Ms. Bach. Well, I said in my testimony that I think you 
have to engage them. It has to be compelling. We do it with 
humor. We tell individual stories about things that have 
actually happened to us. We talk about scamming the scammers. I 
will tell you that I do not mind jerking them around on the 
phone a bit, and, again, I give my individual audiences 
permission to be rude. And I had the federal grant call, and 
some of you may not be familiar or heard about the federal 
grant. But with a lot of talk in the news about the economy 
improving somewhat and some of the initiatives that the 
government is wanting to take to improve the economy, I got a 
call from a guy who had a very---an accent that was very 
difficult to understand, and he told me I had won the federal 
grant and that it was $9,300, and I got very excited on the 
phone. And I asked him what it was for, and he said, ``We want 
you to go out and spend it and stimulate the economy.'' And I 
said, ``How do you want me to use it?'' He said, ``You can pay 
bills. You can go shopping.'' Music to my ears.
    And so then he said, ``But I have to have some information 
about you.'' He verified my name, which is available in the 
phone book or on the Internet, and my street address. And I 
live in Murrysville, Pennsylvania, but he had me in Raleigh, 
North Carolina. So, of course, I verified for him that I did 
live in Raleigh, North Carolina, with that Zip code. And then 
he said, ``And we have to know your age.'' And I said, ``A 
gentleman should never ask a lady her age.'' And then he 
started guessing, and he said, ``If I guess, will you tell me 
if I am getting it right?'' And I said, ``Give it a try.'' And 
he started at 75. And I said, ``That is much too old.'' And 
then he started going down in 5-year increments. I evidently 
think he only thought he could go down. And every time he took 
5 years off, I told him he was not correct. And so he kept 
guessing.
    When he got to 60, I said, ``Oh, it sounds good.'' And so 
he had me in Raleigh, North Carolina, at 60, and then he told 
me to go to a Moneygram store. And I was actually talking on my 
landline in my kitchen to this guy, who I am sure was out of 
the country, and I have never actually bought a Moneygram, but 
I know what they are. And so he said, ``Go to the Moneygram 
store in your community and wait for our call.'' Well, if I had 
gone to the Moneygram store, I would still be standing there 
because he would be calling my phone in the kitchen. So that 
was the end of that conversation.
    A week later, I got a similar call from a different voice 
on the phone telling me I had won the federal grant. And so I 
played along again, and this time he said it was for $4,000. 
And I said, ``Oh, my goodness. Last week the guy promised me 
$9,300.''
    [Laughter.]
    Ms. Bach. And he hung up the phone on me.
    So those are the kinds of stories we tell, and we talk 
about what we do in a fairly entertaining fashion, and people 
like humor, and sometimes people remember more when they hear a 
funny story or they see somebody waving a red flag, and giving 
them permission to hang up the phone and not have to talk 
politely or with trust to the person who has called them and 
interrupted their dinner hour.
    Senator Cortez Masto. Thank you. And I notice my time is 
up. I just have a quick question. So how do you connect, where 
do you go to connect to your peers? And I guess for the 
Shimans, if you were to get this education, where would you 
have gone? I mean, unless you are aware of the education that 
is out there, that AARP is doing it or the forms are there, how 
do we make sure people know. How do we make sure seniors know 
where to go and connect the two of you?
    Mr. Shiman. Speaking for us, we live Saco, Maine, and we 
have had this happen in the community as a growing thing in 
Maine. We call it ``Age-Friendly Communities'' that circulates 
information about things like this. That is the way--I am 
active with that organization, and that reaches out to seniors 
in big numbers.
    Senator Cortez Masto. Good.
    Mr. Shiman. So I think that you look for that kind of 
organization, AARP or other agencies.
    Senator Cortez Masto. And connect.
    Mr. Shadel. Can I just add one thing? We do have--there are 
fraud fighter call centers. We have one in Seattle and one in 
Denver. The number is in this brochure. And those are 
volunteers. Those are peers answering the phones, and they will 
talk to the person as long as they need to, to get them where 
they need to go. So people can call us.
    Senator Cortez Masto. Thank you.
    Ms. Omansky. I would like to add something. My group have 
all been victims of scams, and, of course, everyone has been a 
victim of a target. So the most effective way that my group 
educates the seniors that we go to is to come into the audience 
after our program and talk to them on an individual basis. And 
this is different because it is like a support group right 
there. We do not leave after our program. We are there to 
answer questions. And we have veterans in our program. We have 
four, and they are in the field talking to veterans, and they 
bring back to us what the concerns are of the veterans and what 
the scams are. And we find out some scams that no one has ever 
heard of.
    There is a reverse grandparent scam, and we encourage our 
seniors, especially when we are in libraries and it is open to 
the community, to bring their grandchildren and their children. 
And we found out that young people are now getting calls that 
their grandparents are in jail--not in jail but have gotten 
into an accident and they need money. And we have prevented two 
of these scams, and we found this out twice that this is 
happening in Los Angeles.
    So we are sure there is more out there. So that bond that 
we talked about is very, very special, and that bond, 
grandparents can talk to grandchildren, sometimes they cannot 
talk to their children.
    Senator Cortez Masto. Right. Thank you. And I know I have 
gone over my time. Thank you.
    The Chairman. That is fine.
    Mrs. Shiman, you look like you wanted to add something.
    Mrs. Shiman. Yes. To me, the most powerful thing is one on 
one. You tell your friends, and this is what we found out. The 
point is that when people are scammed, they do not want to talk 
about it. And once you let it out, the pipeline starts flowing, 
and somebody will tell somebody else, ``Did you know the 
Shimans were scammed?'' And I think you have to make it very 
personal in addition to all of these other things. You have to 
feel that it can happen to you. If it happened to them, it can 
happen to you.
    Ms. Bach. And, Senator, from the perspective of the 
presenter or the person who is providing the program, you have 
to know your audience. You always have to know the types of 
people that are in your audience, and that is why we find FRAUD 
Bingo to be so very successful in Pennsylvania, because we play 
Bingo with a message, and we call the numbers, but it is F-10 
or D-60 as opposed to B-I-N-G-O. We use the word ``fraud.'' We 
provide the prizes, and with every number that we call, we give 
a tidbit about fraud, like, ``Investigate before you invest,'' 
or ``Do not trust caller ID,'' a simple message that resonates 
with people in the audience and they can have fun and learn at 
the same time and maybe win a prize.
    The Chairman. Thank you.
    Senator Blumenthal?
    Senator Blumenthal. Thank you all for being here. I have 
another hearing I am going to have to rush to now. But let me 
just say I sort of feel like there is an elephant in this room, 
which is where are our law enforcers, right? The Western Union 
settlement I thought had been concluded years ago. Why are we 
permitting established institutions to aid and abet these kinds 
of schemes? They have the ability, in fact, they have increased 
ability with modern technology to stop them. And if it were a 
priority, if our law enforcers at both the state and federal 
level took a more aggressive role here, and if we passed a 
statute I happen to have proposed--I have no pride of 
authorship--the Robert Matava Elder Abuse Prevention and 
Prosecution Act that would require mandatory forfeiture when 
these people are caught so that there are real penalties and 
also prison terms for this kind of fraud, I think we could 
really assist our seniors. I think word of mouth is great. I 
think education is fine. But at the end of the day, what these 
people understand is the criminal justice system, and that in 
turn also would publicize more of these schemes.
    So I want to thank you all for being here, and I look 
forward to working with you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator. Before you came in, I 
mentioned that the Justice Department has just announced a new 
initiative in this area, and the appointment in every one of 
the 94 U.S. Attorney's Offices of an elder fraud prosecutor, 
essentially. So I think you are absolutely right, there has 
been a lack of information--or focus by law enforcement on 
this, but I am hopeful that we are on the right track now. And, 
of course, for state officials, if the call center is in India, 
it is very difficult for state officials to do anything about 
it.
    I just want to ask one final question and give each of my 
colleagues a chance in case they have one as well.
    Ms. Omansky, in 2015, Congress mandated that Medicare 
remove the Social Security number from Medicare cards by the 
year 2019 because people could see that number and it was being 
used for fraudulent purposes. So Medicare is now mailing out 
new cards to all enrollees beginning next month, and many of us 
have really pushed for this. And the cards are free, but guess 
what? Not surprisingly, scammers are using this new policy to 
try to trick seniors into paying for their new cards.
    Could you please talk about what you are doing with the 
Senior Medicare Patrol to warn seniors that they should not pay 
for these cards, that they are free?
    Ms. Omansky. Thank you very much for asking that question, 
Senator. We collaborate with Senior Medicare Patrol, and they 
have a new bookmark out which explains what the card is going 
to look like, and it explains the fraud. We take this card to 
every one of our performances, and we have it in ten different 
languages.
    Also, we just collaborated with them on a video in which an 
older woman and her son discuss a potential scam about the 
Medicare card. Now we take that into our performances, and we 
act it out live with the same actors, because the two actors in 
the video are a part of our program, and this is very 
successful because we show it three ways: we show it written, 
we show it in a video, and we show it live.
    The Chairman. That is great. Thank you.
    Senator Casey?
    Senator Casey. I just have one question for Mr. Shadel. 
Based upon some of the testimony we heard today from Mary 
talking about her travels, the many miles, I think our staff 
did a rough calculation, Mary, and I guess if you are at 15,000 
miles, it means you have driven across the state 53 times. I 
just hope you do not run for office.
    [Laughter.]
    Senator Casey. But no matter how many miles she travels or 
how many times she would go across the state, of course, she 
cannot prevent every one of these. So we have got to get at the 
root causes. We know the FTC finalized the new rule that I 
mentioned to allow the phone companies to block calls. But 
obviously this problem of spoofing fraud is still happening.
    I guess the basic question I have is: What can we do to 
ensure that the industry is using this new tool and every other 
possible tool to prevent this? What is your sense of that?
    Mr. Shadel. Yes, we definitely supported that move of the 
FTC to allow telecommunications companies to use the technology 
that we know exists to slow down these robo-dials. When we 
survey our members, one of the--this neighbor spoofing thing is 
what really kind of, excuse the expression, freaks out our 
members because it is like they have got the area code and the 
prefix, that is my area code and prefix. I get these myself. 
And there has been an astronomical rise in not just robo-dials 
but that particular kind of robo-dial because people pick it 
up. We are starting to wise up to it. And so anything we can do 
in the way of enforcement, holding the feet to the fire of the 
telecommunications companies to use the technology that we know 
exists--I mean, in 2013, the FTC had a design challenge--you 
may recall this--where I think Nomorobo was the winner, and 
this was simply a blacklist data base that he created by buying 
old phone lines and then monitoring them and identifying--this 
particular company identifies 1,000 new robocallers a day. So 
we know that the technology exists to be able to identify those 
and block them. We just need to get them to do it.
    I am always astounded whenever I see the new FTC Consumer 
Sentinel report coming out that still, in terms of complaints 
coming into Consumer Sentinel, 70 percent of the way these 
consumer fraud people are contacted is by phone still. Even 
with all the e-mail technology and the texting going on that we 
hear about, a lot of it is still the phone. And one of the 
things--and Mary and I have talked about this--that we give 
people just as a tip is we teach them to use a refusal script. 
A lot of our folks, when you survey our members, say, ``I do 
not want to be rude,'' ``I do not want to hang up the phone.'' 
So we say, ``OK, you do not have to be rude, but write a 
sentence or two down. I will help you. How about this? `I am 
sorry. This is not a good time. Thank you for calling.' Put 
that phrase by the phone so you can disconnect.'' Because if 
you get on the line with them, it is like playing one-on-one 
basketball with an NBA player. You are not going to win.
    So, anyway, you know, the robo-dial thing is--nothing riles 
up our members more than just picking up the phone and they do 
not know who it is, or they hear nothing and they do not know 
who that is, and they get worried about it.
    Senator Casey. Thank you.
    The Chairman. Senator Casey, I am so glad you brought up 
that last issue and that Mr. Shadel had the opportunity to 
respond, because years ago, when the Do Not Call Registry was 
established, we had hoped that we were going to see an end to 
these kinds of abusive calls. And the ability to spoof the 
telephone number has really made the Do Not Call Registry 
useless. And I share your frustration that the 
telecommunications companies have technology available that 
could help in solving this problem.
    Mr. Shadel. Absolutely.
    The Chairman. And they need to deploy it. And it would make 
such a difference.
    I am personally not surprised that the telephone is still 
the instrument of choice by con artists because it is harder to 
have an emotional connection through e-mail. Romance online 
scams do exist, but it is when you hear someone on the phone 
and you do not want to be rude, and you may be isolated and 
living alone, that it can become very seductive to be drawn 
into a scam. And I think your refusal script is a really good 
idea and one that we should add to next year's Fraud Book as 
one of our tips for people.
    As our Fraud Book and the extensive hearings that we have 
held make clear, criminals are absolutely ruthless in their 
pursuit to swindle seniors out of their hard-earned savings, 
and we have heard truly tragic stories of people losing their 
life savings. And we need to crack down on this from several 
perspectives. I am pleased that we are finally seeing a 
concerted effort by the Department of Justice, which is long 
overdue. The FTC in my judgment could do more as well. The 
telecoms could do more.
    But I want to thank you for your efforts because the best 
thing we can do is to prevent people from becoming victims in 
the first place. If these con artists have to make 1,000 calls 
before they get one victim, that not only is going to slow them 
down, which is why I love that Ms. Bach keeps them on the phone 
so long.
    [Laughter.]
    The Chairman. It is not only going to slow them down, but 
they are going to move on to something else, a more cost-
effective way of trying to commit a crime. We will have to go 
after that, too. But educating people about these crimes is 
absolutely imperative, and we know we have a wave of baby 
boomers who are going to be the new silver tsunami, and there 
are some who actually call financial fraud the crime of the 
21st century and that it is just going to keep snowballing if 
we do not keep being relentless in our fight back against 
fraud.
    So I am very encouraged about the efforts that you are 
undertaking, and to the Shimans again, a special thank you to 
you for putting a human face on those who have been victimized, 
and your coming forward will help prevent others from becoming 
victims as well, which we very much appreciate.
    Mrs. Shiman. Thank you very much.
    The Chairman. Thank you.
    I look forward to continuing to work with Senator Casey, my 
Ranking Member, and the other members of this Committee in 
order to fight for and protect our Nation's seniors.
    Senator Casey, any final thoughts?
    Senator Casey. Thank you, Madam Chair, and I share that 
sentiment. I think everyone is determined to keep working 
together on this. The bad guys are creative. We can be as 
creative and as determined as they are. And this is one of the 
days we have more information because of your testimony and 
because of your lived experience in dealing with this.
    I have to say, Mrs. Shiman, when I was listening to the 
first part of your testimony, you had me, even without any kind 
of emotion. I probably would have fallen for that. I hope I 
would not have, but just the recitation of it was very 
compelling.
    So we have a long way to go, but I think today is one of 
those days we can really shine a light on this, and we are 
particularly grateful for the Chairman and her work on this for 
many years. And, Mary, I hope everybody in Westmoreland County 
who is thinking about taking you on is on guard, because you 
are ready to meet them.
    Ms. Bach. Thank you, Senator.
    Senator Casey. Thanks very much.
    The Chairman. My thanks to all our witnesses, and also to 
our staff, which has worked very hard on this issue and cares 
deeply about it as well.
    Committee members will have until Friday, March 16th, to 
submit any questions for the record, and if we get some, we 
will be passing them your way.
    Thank you again, and this concludes our hearing.
    [Whereupon, at 2:23 p.m., the Committee was adjourned.]

      
      
=======================================================================


                                APPENDIX

     
=======================================================================


                      Prepared Witness Statements

=======================================================================


    Prepared Statement of Rita and Stephen Shiman, Grandparent Scam 
                          Victims, Saco, Maine
    Good morning. Thank you for your interest in the problem of 
scamming of senior citizens. We also want to thank our friend, Sheriff 
Bill King of York County, Maine, for his work in educating seniors 
about scamming.
    Indeed, there is a special bond between grandparents and their 
grandchildren. The scammers knew this well and took full advantage of 
it with us. They knew that when a grandchild is in trouble, 
grandparents go all out to help. There also was a concern on our part 
of potential racial bias in this situation.
    On the morning of May 28, 2015, Rita answered the phone and spoke 
to someone who said he was our grandson, Kabo, who is an adopted native 
of Botswana. She said it sounded just like him. He said he was in 
Atlanta, Georgia and that he had been arrested and was in a county 
jail. He needed bail money. She asked him what brought him to Georgia 
from his home in Maryland. He said a college classmate had died of 
cancer and several friends drove to Georgia for the funeral.
    Kabo told Rita he was assigned a public defender who promised him 
he would be freed upon payment of bond satisfactory to a judge. He was 
turning to us, because he didn't want his parents (our son and his 
wife) to know. He made Rita promise she would not tell anyone about 
this. He said the public defender would call us shortly.
    The supposed public defender, identified as George Diaz, did call 
us and said he was meeting with the judge shortly. There was a sense of 
urgency. If we paid $1,230 the judge would release Kabo. He said the 
transaction had to be in cash and sent via Western Union to his contact 
in the Dominican Republic, and he gave us the details. That statement 
alone should have raised a red flag, but we were so caught up in the 
moment that we were simply acting on autopilot. He also said that if 
Western Union questioned this transaction, we should say nothing. He 
said they legally have no right to ask. As it turned out, no one raised 
an eyebrow.
    When we returned home after making the payment and calmed down, we 
began to have second thoughts, especially after we received another 
call from the public defender that he had met with the judge and the 
amount we had sent was not enough. Stephen called the public defender's 
office in Atlanta and learned there was no one by the name of George 
Diaz. Stephen then called our son's house. Kabo picked up the call. He 
never was in Georgia!
    It's very easy to play Monday morning quarterback. There were so 
many red flags. We replayed the entire incident over and over, and 
couldn't believe we had been so duped. Hopefully, through the work of 
this committee and that of AARP we can find a way to prevent others 
from becoming victims of this malicious activity.
                               __________
                               
    Prepared Statement of Doug Shadel, Ph.D., State Director, AARP 
                               Washington
    Thank you Chairman Collins, Ranking Member Casey and Committee 
Members for the opportunity to talk about the current state of consumer 
fraud that targets older persons in the United States. I would like to 
briefly mention three things in my remarks today:

    (1)  Provide an overview of the most common scams we see going on 
in the marketplace;
    (2)  Describe some of the newer research we have done with 
colleagues at Stanford University, the FINRA Foundation and the U.S. 
Postal Inspection Service about what makes consumers particularly 
vulnerable to scams and fraud; and
    (3)  Describe how we have applied some of this research to our 
outreach and prevention programming in the field.
Common Scams
    The biggest single area of fraud we see is the rise of imposter 
scams. The FTC's Consumer Sentinel reports that the number of fraud 
complaints involving imposter scams has risen from about 120,000 in 
2013 to over 400,000 in 2016. AARP did a survey last year and found 
that the top imposter scams were:

    (1)  Tech support scams--A pop up appears on your computer telling 
you that you have a virus and to call a toll-free number to have it 
removed. The scammer charges an arm and a leg to remove what is often a 
non-existent problem.
    (2)  Phishing scams--P-H-I-S-H-I-N-G--These are notices you get via 
mail, e-mail or text that look like your bank or your credit card 
company and they tell you to contact them with personal information to 
fix a problem with your account. The scammer's goal: steal your 
personal identifying information.
    (3)  Lottery scams--Someone calls or writes and tells you that you 
may have won the Jamaican or Spanish lottery and all you need to do to 
claim it is pay a small tax or fee.
    (4)  IRS scams--You get a call that tells you that you owe the IRS 
thousands of dollars and you need to take care of it immediately or you 
will be arrested and thrown in jail.
    (5)  Romance scams--Someone contacts you on a dating Web site and 
starts ``love bombing'' you--showering you with praise and declaring 
their love within hours of first meeting in order to convince you to 
send them money.
    (6)  Grandparent scams--This is the scam we just heard about, where 
someone calls posing as a distressed relative who needs money to get 
bailed out of jail.

    Now you might ask yourself what do these scams have in common? One 
thing is the scammer is pretending to be someone they are not and in an 
age of advanced technology, there has never been an easier time to do 
that. One scammer told us if you are committing fraud and you are not 
using the internet, you are guilty of malpractice.
    The second thing they have in common is they are trying to arouse 
your emotions through fear and/or excitement in order to get you to 
make a decision you may later regret. This leads me to discuss some of 
the research AARP has conducted about the role of heightened emotions 
and fraud victimization.
    Over the past decade or so, we have interviewed numerous con 
artists about their crimes. When we ask them, ``What is your central 
strategy for defrauding consumers?'', they always say the same thing: 
get the victim ``under the ether.'' What is ether? Ether is slang for a 
heightened emotional state that forces the victim to react emotionally 
rather than think logically. The idea is that when someone is in an 
emotional state, whether it is being joyful because you may have just 
won the lottery, or fearful because your grandson is in a Canadian jail 
or you have just been told you owe the IRS thousands of dollars, the 
logical reasoning part of your brain is swamped out by the strong 
emotions of the moment and the victim is more likely to make what 
academics call ``a suboptimal decision'' that leads to being scammed.
    In 2014, AARP and the FINRA Foundation teamed up with researchers 
at Stanford University to test the role of emotions in fraud. The 
research question was this: does making a buying decision while in a 
heightened emotional state make it more or less likely one will fall 
for a scam? We tested this by bringing older and younger people into a 
lab in Palo Alto. In one experimental condition, subjects played a 
rigged game in which they initially won money but then lost 
continually. This left them in an angry emotional state. In another 
condition, subjects played a rigged game in which they initially lost 
money, then had a continual winning streak, which put them in a mood of 
positive excitement. A third group played a game that created no mood 
change.
    All three groups were then asked to review and rate deceptive 
advertisements based on their credibility and how likely they would be 
to purchase the item. The results were telling: Older people who were 
in a heightened emotional state (positive or negative) were more likely 
than the control group to say they'd buy, whether or not they found the 
ads credible. They were also easier to arouse emotionally than younger 
persons or controls.
    This finding supports the con artist's contention that getting 
consumers ``under the ether'', especially older people, creates a 
vulnerable moment in which they are more easily manipulated and 
therefore more easily scammed.
    How does this research apply to prevention? Well, for decades now, 
the clarion call of fraud prevention practitioners everywhere--and I 
admit--I have used this myself--has been ``If it sounds too good to be 
true, it probably is.'' While this statement makes perfect sense, it is 
only effective if you are thinking logically. But the con man's first 
and really only goal is to get you away from logic and into emotion and 
keep you there as long as possible. As a result, relying on this ``too 
good to be true'' phrase is like locking your money in a safe where the 
thief has the combination.
    Much of what we do in our workshops in local communities is to 
teach consumers the persuasion tactics scammers use to get the victim 
under the ether. We teach them about the phantom wealth tactic, which 
is dangling the prospect of winning the lottery as a way to get you 
excited. We teach them to spot fear tactics like the grandparent scam 
where they claim your grandson or daughter is at grave risk.
    We also use this research in our AARP Fraud Fighter Call Centers in 
Seattle and Denver that make outbound and inbound calls to consumers 
all over the country. Dozens of volunteers provide peer counseling that 
reminds folks how the scammers operate and the sneaky emotional 
manipulation they use to trick you. These peer counseling interactions 
have also been tested by Stanford social scientists and those who 
received such calls are significantly less likely to get scammed as a 
result. I have provided committee staff with copies of these studies 
should you want to read more.
    Because so many of the scams seniors fall for are still done over 
the phone, we provide older consumers with what we call a ``refusal 
script'' that allows them to more easily end an interaction with a 
potential scammer. AARP focus group research found many older consumers 
find it difficult to discontinue a conversation with a scammer or an 
unknown caller because they don't want to be rude. We advise seniors to 
write out a script and put it by the phone so that if they need to end 
the call, they have something to say without being rude. What's an 
example? ``I'm sorry, this is not a good time. Thank you for calling.''
    One final point: last November, AARP announced a national 
partnership with the U.S. Postal Inspection Service (USPIS) to warn 
military veterans about fraud. Research shows that 8 in 10 military 
victims have received at least one scam attack in the last year and the 
number of veterans who report being victimized by fraud is 
significantly higher than for the general public.
    Beginning this week, Americans who visit more than 30,000 post 
offices around the country will find written fraud prevention materials 
that can help military veterans avoid scams that specifically target 
them, including VA loan scams, pension poaching and aid and attendance 
scams.
    Thank you for the opportunity to participate in this hearing this 
afternoon.
                               __________
                               
 Prepared Statement of Mary Bach, Chair, AARP Pennsylvania's Consumer 
              Issues Task Force, Murrysville, Pennsylvania
    Good Morning. My name is Mary Bach and I am from Murrysville, 
Pennsylvania, a suburb of Pittsburgh. Thank you Senator Collins, 
Senator Casey, and Members of the Committee for allowing me to share 
with you my story, and of AARP's efforts to educate consumers about the 
frauds and scams that now proliferate almost daily in all our lives.
    I am a former high school teacher and a long-time consumer advocate 
with a history of activism on a wide variety of consumer rights issues. 
I was honored in 1999 at the National Press Club in Washington, DC as 
``Consumer of the Year'', and in 2002, was invited to join Governor 
Schweiker as he signed into law the Commonwealth's ``Do Not Call'' 
legislation, for my assistance in helping the public to understand its 
significance. In 2004 I was the recipient of the Andrus Award for 
Community Service in Pennsylvania, the highest volunteer award given 
within AARP.
    I have been a lead volunteer with Pennsylvania AARP for almost 20 
years, chairing their Consumer Issues Task Force. As you are probably 
aware, AARP is the largest organization for people over 50 in the 
world, advocating for seniors on a wide variety of critical issues. My 
task force team consists of 15 volunteer members from across 
Pennsylvania who are enthusiastic about educating people of all ages, 
but especially seniors, about current scams. Our Mission Statement 
reads: ``The AARP Consumer Issues Task Force will promote consumer 
protection for all Pennsylvanians, educating members and the public 
about fraudulent, misleading, unfair, and/or abusive marketplace 
practices''. We educate people about the red flag moments in their 
lives.
    We offer programs and speak before all types of groups, from civic 
clubs, senior centers, and religious organizations to professional 
associations, retirement communities, and school groups. I personally 
average approximately 15,000 driving miles per year across 
Pennsylvania, presenting at 100 or more events and sharing AARP's 
information with more than 4,000 total attendees in my audiences. I 
couple that with a number of personal appearances on local and 
statewide television and radio shows, and occasionally even do tele-
town hall conferences that reach thousands. Pennsylvania Attorney 
General Josh Shapiro and I did one recently on frauds and scams that 
had almost 10,000 AARP members tuned in. I've even done a series of 
videos on You Tube, which were professionally produced by AARP, called 
``Outsmarting the Scammers with Mary Bach''.
    There's an old saying. ``Each one teach one'' and in AARP we are 
teaching or educating many, many people. We know that education is 
power and, when someone hears the specifics of a scam, they are much 
less likely to be victimized. If you can spot a scam, you can stop a 
scam!
    The Consumer Issues Task Force volunteers offer entertaining and 
compelling presentations, knowing that people need to be engaged in 
order to better remember the message. We even have a FRAUD Bingo 
program which we refer to as Bingo with a message, a fun game, which is 
educational, too. Everything we do is centered around scam prevention.
    Because of the grass roots nature of our work and mission, we have 
developed strong relationships with many government agencies that 
appreciate our help in distributing their excellent printed materials 
to our audiences. This would include the Pennsylvania Department of 
Banking and Securities, our Department of Insurance, the Commonwealth's 
Attorney General's office, and on a national scale, FINRA, the FTC and 
the FCC. While people like to have printed information in hand, the 
face to face, peer to peer, senior to senior interactions generate a 
trust factor when we are able to swap relevant real life stories.
    After a presentation, I often will stay and answer questions one on 
one with people who approach me with either a personal story or an 
unresolved issue related to what we outlined for them. Many are 
animated by concerns for themselves or a loved one who may have been 
victimized by a scam artist. It isn't unusual for some to say ``I wish 
I had heard your program before I gave money to that contractor, or 
bought that annuity, or accepted a free medical device I really didn't 
need, or actually believed that the guy I met on the internet was in 
love with me''. These are some of the actual things someone has said to 
me.
    Seniors are being targeted because they are thought to have money 
available. Older consumers may be less technologically savvy and may 
not understand how much personal information is available about us in 
the public and in cyberspace. They are being inundated with phone calls 
that they cannot control. Scammers are now extensively spoofing their 
caller IDs to make those they call believe they are calling from a 
place that fits in with their intended scam, such as the local police, 
the IRS, a charity, Microsoft, and any number of legitimate businesses. 
Until I tell them in my presentations that they can no longer rely on 
their phone's caller ID, many in my audience are astonished. I have had 
my own name and number appear in my caller ID and it is certainly 
obvious that I hadn't called myself. Scammers have used my name and 
phone number to call intended targets. I became aware of this when I 
received a call from someone I did not know and had not called who 
asked me why I had phoned her. She indicated that she was returning my 
call to the number that showed on her caller ID, because no message was 
left.
    Imposter scams are everywhere. Like many other seniors, I've 
received calls involving the tech support scam, the federal grant scam, 
charity scams, and sweepstakes and lottery scams, among others. I 
particularly want to emphasize the IRS scams which are quite prevalent 
at this time of year. Having never fallen for any, I often reflect on 
how I may have become so popular on the scammer's ``mooch lists''. It 
could be that there is a contest among the scammer crowd to see who can 
get Mary Bach. A man in Syria sent me a Facebook message telling me he 
wanted to marry me. I assure you, my husband, Len, of 51 years, who has 
accompanied me today, might object to that! He has answered the phone 
to hear the jury duty scam and the grandparents scam, among others. The 
bottom line is that all of these scams are all about money, the 
potential victim's money, and that is why education and vigilance are 
imperative. When people understand, they will hang up the phone. At 
many of my events I always give my audience members permission to be 
rude! AARP does not want anyone to fall for a telephone line.
    AARP has pioneered a nationwide program addressing scam awareness 
called the Fraud Watch Network. Consumers of all ages can sign up at 
``aarp.org/fraudwatchnetwork'' to receive fraud alerts. It is free of 
charge and no membership is required. People without computers can sign 
up to receive alerts by postal mail. Pennsylvania AARP is quite proud 
that our AARP Consumer Issues Task Force leads all other states in the 
Nation in recruiting members to join the Fraud Watch Network. Scam 
prevention and avoidance is our mission and is an essential element in 
our team's DNA.
    AARP sponsored a Hackathon contest here in Washington, DC 
challenging student teams from prestigious area universities to come up 
with ideas to help prevent or stop scams. The innovative ideas that 
were proposed by these students, if implemented, would help stop robo-
calling scams and caller ID spoofing, among others. The solutions to 
stop burgeoning advanced technology scamming must create and use the 
same technology to work for consumers to end such scamming.
    I thank you all again for the opportunity to be here today as 
someone in the trenches, day to day, trying to make a difference in 
helping to diminish or eliminate the number of people being victimized 
by scams or fraud. I like to think that while we can list many of those 
who have been scammed by their reported acts, that I and my task force 
are enabling many more that could have been taken, to not be on that 
list. I welcome your questions.
                               __________
                               
  Prepared Statement of Adrienne Omansky, Founder, Stop Senior Scams 
                Acting Program, Los Angeles, California
    Good afternoon Senators, fellow testifiers and guests. Thank you 
Senator Collins and Senator Casey for inviting me to this important 
hearing. I am Adrienne Omansky, founder of the Stop Senior 
Scams<SUP>SM</SUP> acting program. It is an honor to be here to provide 
testimony on how my program has had an impact on stopping senior scams.
    I am a retired teacher of thirty-eight years with the Los Angeles 
Unified School District. As a teacher of programs for older adults and 
adults with disabilities, I taught classes in health and fitness and a 
unique class that I developed in training older adults in commercial 
acting. In my role as a teacher, I was in a position to hear my 
students' concerns and one day, over coffee, the conversation led to 
the subject of scams that they have experienced. Soon, the seniors in 
the acting class were excited about using their acting skills to 
educate their peers. It was 2009, and the Stop Senior 
Scams<SUP>SM</SUP> acting program was born.
    The school district embraced our new education program and was 
especially supportive when we collaborated with several Los Angeles 
City council members to designate May 15 as Senior Fraud Awareness Day 
in the city.
    In 2015, our school district eliminated all the programs for older 
adults and our Stop Senior Scams<SUP>SM</SUP> acting program was in 
jeopardy. We were able to continue as a total volunteer group with the 
help of our community partners. We were assisted with transportation 
needs and rehearsal space from the City of Los Angeles. Senior Medicare 
Patrol and the Federal Trade Commission provided us with educational 
materials and our program continued.
    In the last few years, we have grown and have performed in about 
thirty venues per year, from a small veterans group, to the convention 
center with over 1,000 seniors. We have 26 skits in our repertoire. We 
always include the Medicare, IRS and ``I Won a Prize'' skits. In every 
venue, the seniors have experienced many of the same scams, including 
the IRS and grandparents scams. One of our own cast members. Janey, was 
a victim of an insidious form of the grandparents scam. The scammer got 
information from her facebook page and threatened to kill her 
granddaughter if she didn't send the money being demanded. Janey sent 
the money. She felt empowered by telling her story to other seniors.
    Our program is always evolving, changing, adding and creating. We 
have help in crafting our skits from a professional theater and 
performance arts center. Although we use many aspects of theater in our 
skits including puppets, this is not enough to educate our audience. We 
collaborate with professional organizations to make sure our 
information is accurate.
    After each skit, our former judge Francine Lyles, or one of our 
educators, explains the scam to the audience. The finale of the program 
includes all cast members singing the ``Just Hang Up'' song and each 
actor steps forward and tells the audience if they were a victim or 
target of a scam. At the conclusion of the program the audience is 
asked to fill out a comment card to tell us what they liked or make 
suggestions. Bookmarks from Senior Medicare Patrol and the Federal 
Trade Commission are always given out. In addition, materials are 
available from the city and county district attorneys' offices.
    We often meet people that we cannot forget. The three 90 plus year 
old veterans who were victims of the same scams. The 99 year old man 
with the red beret. When he was asked if he enjoyed the program, he 
said he unexpectedly learned a lot. He came to the center to meet a 
younger woman. Then there was the young man who brought his grandmother 
to the senior center because she was about to send money to get back 
her drivers license. They both approached me with a letter that 
indicated that she could get her drivers license reinstated if she 
would send a large sum of money to the address on the letter. To assure 
her that it was a scam, I told them to go to the Department of Motor 
Vehicles and have them look at the letter. The lady seemed very upset 
with her grandson and very embarrassed. I assured her that we were all 
in the same boat and there were others who have been scammed out of 
money from a similar letter. They returned two hours later, when our 
program was over and told me that the letter was a scam. I saw the 
relief on her face as she joined our other seniors in a post 
performance discussion. Last year, I met a lady who was shedding tears 
during our performance. She was sitting next to me. She confided in me 
that she wished she had seen our program a week earlier. She lost a 
large sum of money on a ``vacation'' scam. She was saving her money to 
surprise her husband with a cruise to celebrate their 60th wedding 
anniversary. I asked if she would tell her story to our audience. She 
got up and I stood beside her. The audience was quiet, all eyes on her. 
She gave the scammer her credit card number over the phone to pay in 
full for this trip and he took $500 out of her checking account. There 
was no cruise. She told everyone that she trusted the young man who 
told her that she sounded just like his granny.

    Our audience members often tell us what they learned from our 
program.

    What have we learned from them?

    We have learned that:

    <bullet>  Scams are under-reported because seniors sometimes do not 
know where to report them, are ashamed of reporting them, and sometimes 
think it just will not help.

    <bullet>  They are embarrassed to tell their family members, 
including their spouses. They are sometimes afraid to tell law 
enforcement.

    <bullet>  They are more likely to tell their peers then anyone 
else.

    <bullet>  Sometimes seniors do not like professional fraud 
prevention programs because they often feel condescended.

    <bullet>  Seniors who live in assisted living facilities are 
particularly vulnerable to scams because they are lonely and they want 
to win money to help their children or grandchildren.

    <bullet>  Seniors who have been scammed have emotional scars.

    <bullet>  Anyone can be a victim, regardless of education, race, 
gender, national origin, or social economic background.

    <bullet>  Seniors are the ones to stop senior scams.

    <bullet>  Theater is a wonderful platform to educate.

    <bullet>  Peer-to-peer education works!

    The peer to peer model provides a comfortable and safe environment 
where they can identify with people who have similar life experiences, 
both as targets and as victims of scams.
    The people who are disseminating the information are non-
judgemental. This gives the seniors in the audience the opportunity to 
open up and honestly share their own experiences.
    The thread throughout our peer to peer presentation is that ``only 
you and I can prevent senior scams.'' We are all in this together!
  

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
